9-1

A',

■

Supremo Court, U.S,
FiLED

No.

JUL 0 7 2021
OFFICE OF THE CLERK

IN THE
SUPREME COURT OF THE UNITED STATES

GERALD PATRICK THOMAS

— PETITIONER

(Your Name)
vs.

BOBBY LUMPKIN, DIRECTOR

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Gerald Thomas, TDCJ No. 1415141

(Your Name)
Polunsky Unit, 3872'FM 350 South
(Address)
Livingston, Texas
(City, State, Zip Code)
None
(Phone Number)

77351

QUESTION(S) PRESENTED

1. Does Teague v. Lane bar Federal Habeas court from reviewing
the merits of an ineffective assistance of trial counsel
claim because Martinez v. Ryan and Trevino v. Thaler cases
do not announce a new rule applied retroactively to cases on
collateral review?
2. Does Martinez v. Ryan, Trevino v. Thaler and Buck v. Davis
entitle this petitioner to a merit review of ineffective
assistance of trial counsel claims otherwise defaulted in
State Habeas Court?

1

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

Note; BOBBY LUMPKIN is the Director of Texas Department of
Criminal Justice - Institutions Division, and is represented
by the Texas Attorney General.

RELATED CASES
STATE v. THOMAS, No. 02-0190X Harrison County, Texas.
Judgement entered February 3,*2003.
THOMAS v. STATE, No. 06-02-00115-CR. Sixth Court of Appeals,
Texarkana, Texas. Judgement affirmed March 3, 2004.
Ex parte THOMAS. No.63,060-01. Texas Court of Criminal Appeals,
Austin, Dismissed, April 25, 2007.
Ex parte THOMAS, No. 63,060-02;63,060-03; 63,060-04, Texas Court
of Criminal Appeals, Dismissed February 3, 2009, December 30,
2010, July 13, 2007, denied as successive.
THOMAS v. DIRECTOR, No. 9:07-cv-257, .Eastern District of Texas,
Dismissed as time-barred, October 2007
THOMAS v. DIRECTOR, No. 07-41205, United States Court of Appeals
Fifth Circuit, Denied, 2008
THOMAS v. DIRECTOR, No. 2:17-cv-322, Eastern District of Texas,
Dismissed without prejudice to receive jurisdiction. December
9, 2019.
THOMAS v. DIRECTOR, No. 19-41057. United States Court of Appeals
Fifth Circuit. Denied February 25, 2021.
li

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION

2,3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE WRIT

9

CONCLUSION

40

INDEX TO APPENDICES

APPENDIX A “ Decision of the United States Court of Appeals
APPENDIX B “ Decision of the.United States District Court
APPENDIX C“ Finding and Recommendations of U.S. Magistrate Judge
APPENDIX D■ Denial of Petition for Rehearing
APPENDIX E
APPENDIX F

1

iii

TABLE OF AUTHORITIES CITED
CASES (Federal)

PAGE NUMBER

Avery v. Alabama, 60 S.Ct. 321 (1940).........
Barber v. Page, 88 S.Ct. 1318 (1968)...........
Berger v. U.S., 88 S.Ct. 629 (1935).............
Buck v. Davis, 137 S.Ct. 759 (2017).............

10
22
38

Coleman v. Thompson, 111 S.Ct. 2526 (1991)

4,5,8,9,10,12
15.16.20
4,5,8,9,14,
16.20

Crane v. Kentucky, 106 S.Ct. 2146 (1986)....................

20

Danforth v. Minnesota, 128 S.Ct. 1029 (2008)...,.,
Davila v. Davis, 137 S.Ct. 2058 (2017)........................
Davis v. Alaska, 94 S.Ct. 1105 (1974)..........................

12
14

Desist v. U.S., 89 S.Ct. 1030 (1969)............................

11

Doyle v. Ohio, 96 S.Ct. 2240 (1976)...............................
Florida v. Jardins, 132 S.Ct. 1409 (2013)..................
Garza v. Stephens, 738 F.3d 669 (5th Cir. 2013)...

32
24
17

Gideon v. Wainwright, 83 S.Ct. 792 (1963)..................

10

Herrington v. Richter, 131 S.Ct. 770 (2011).............
Holland v. Florida, 130 S.Ct. 2549 (2010)..................
Hughes v. Quarterman, 530 F.3d 336 (5th Cir. 2008)

17
8,14
17

Johnson v. Zerbst, 58 S.Ct. 1019 (1938)......................
Mackey v. U.S., 91 S.Ct. 1160 (1971)............................
Marbury v. Madison, 1 Cranch 137 (1803)......................

10
10,11
10

Martinez v. Ryan, 132 S.Ct. 1309 (2012)......................
Mayberry v. Pennsylvania, 91 S.Ct. 499 (1971)

4,5,7,8,9,10
13,20
18

Michelson v. U.S., 69 S.Ct. 213 (1948).............
Miller-El v. Cockrell, 123 S.Ct. 1029 (2003).

36
3

Montgomery v. Louisiana, 136 S.Ct. 718 (2016)
Pennsylvania v. Ritchie, 107 S.Ct. 989 (1987)
Rose v. Lundy, 102 S.Ct. 1198 (1982)..................
Schriro v. Summerlin, 124 S.Ct. 2519 (2014)....

10,11
22
13
10,11

Slack v. McDaniel, 120 S.Ct. 1595 (2000).............
Smith v. O'Grady, 61 S.Ct. 572 (1941)....................
Strickland v. Washington, 104 S.Ct. 2052 (1984)

13,14,15,16
10
4,17,18

Teague v. Lane, 109 S.Ct. 1060 (1989)....................

9,10,11

iv

22,23

CASE -(Federal continued)

PAGE NUMBER

Trevino v. Thaler, 133 S.Ct. 1911 (2013)...

4,7,8,9,13
U.S. v. Berma, 30 F.3d 1539 (5th Cir. 1999)
38
U.S. v. Cronic, 104 S.Ct. 2039 (1984)...........
4.18
>
U.S. v. Gallardo-Trapero, 185 F.3d 307 (5th Cir. 1999)..37
U.S. v. Krezdon, 639 F.2d 1327 (5th Cir. 1981).

35
29
31
31

U.S. v. Kuchinski, 469 F.3d (9th Cir. 2006)....
U.S. v. Maseratti, 1 F.3d 330 (5th Cir. 1993)..
U.S. v. McDowell, 498 F.3d 308 (5th Cir. 2007).
U.S. v. Moreland, 665 F.3d (5th Cir. 2011).........
U.S. v. Pennington, 20 F.3d 593 (5th Cir. 1994)
U.S. v. Powell, 124 F.3d 655 (5th Cir. 1997)...

29
32
23

U.S. v. Rodriguez, 43 F.3d 117 (5th Cir. 1995).

32

U.S. v. Taylor, 210 F.3d (5th Cir. 2000).............
U.S. v. Templeson, 624 F.3d 215 (5th Cir. 2010)
U.S. v. Young, 105 S.Ct. 1138 (1985)......................

38
24
38

CASES -(State)

:PAGE NUMBER

Cantu v. State, 939 S.W.2d 627 (Tex.Crim.App. 1997)...
Cooks v. State, 844 S.W.2d 697 (Tex.Crim.App. 1992)...

39
37

Daggett v. State, 187 S.W.3d 444 (Tex.Crim.App. 2005).
Ex parte Garcia, 486 S.W.3d 565 (Tex.Crim.App. 2016)..
Ex parte Manchaca, 854 S.W.2d 128 (Tex.Crim.App. 1993)

35
15
37

Gaddis v. State, 753 S.W.2d 393 (Tex.Crim.App.).............

39
Geuder v. State, 76 S.W.3d 133 (Tex.App.-Houston [14th Dist]
2002)...37
Goff v. State i 930 S.W.2d 537 (Tex.Crim.App. 1996)
34
Jenschke v. State, 147 S.W.3d (Tex.Crim.App. 2004)
26
Melton v. State, 713 S.W.2d 107 (Tex.Crim.App.)
37
Montgomery v. State, 810 S.W.2d 372 (Tex.Crim.App. 1990)...34
Nixon v. State, 940 S.W.2d 687 (Tex.App.-El Paso 1996)
33
Pawlak v. State, 420 S.W.3d 807 (Tex.Crim.App. 2013)..
28
Reed v. State, 991 S.W.2d 354 (Tex.App.-Corpus Christi 1999).37
Thrift v. State, 134 S.W.3d 475 (Tex.App.-Waco 2004)
28
Walker v. State, 195 S.W.3d 250 (Tex.App.-San Antonio 2006).36
Wheeler v.State, 67 S.W.3d 879 (Tex.Crim.App. 2002)
Wiley v. State, 74 S.W.3d 399 (Tex.Crim.App. 2002).
v

36
20

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

A~

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix 5
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was February 25, 2021
[ ] No petition for rehearing was timely filed in my case.
|X] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: March 26, 2021
, and a copy of the
order denying rehearing appears at Appendix _D_
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

STATEMENT OF THE BASIS FOR JURISDICTION
(Expanded)
"A 90-day time limitation to file from the date a rehearing
is denied," (Rule 13, No. 3), the due date for filing is June 25,
2021, except for ORDER 589 U.S.

extending the deadline due to

COVID-19 health concerns to 150 days, or August 25, 2021.
A review is necessary because a U.S. Court of Appeals has
decided an important question of Federal Law in a way that conflicts
with relevant decisions of this Supreme Court.

"We [the. Supreme

Court] may review the denial of a C.O.A. by the lower courts."
See e.g. Miller-El v. Cockrell. 537 U.S. 322, 326-27, 123 S.Ct.
1029 (2003). "When the lower courts deny a C.O.A. and we conclude
that their reason for doing so was flawed, we may reverse and
remand so that the correct legal standard may be applied." See
Slack v. McDaniel, 529 U.S. 473

485-86, 489-90, 120 S.Ct. 1595

(2000).
The issue is of national importance because Circuit Courts
and Courts Below are still unsure of how to apply the Martinez/
Trevino exception to the Coleman principle on ineffective assist
tance of trial counsel claims. The Fifth Circuit in particular
takes the view that the exception warrants a retroactivity anal­
ysis under Teague v. Lane. This petitioner disagrees and courts
below are in need of some guidance on this issue.

3

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
A citizen accused of a crime has the Constitutional right to
the effective assistance of counsel at trial under the Sixth Amend­
ment to the United States Constitution. The benchmark for evalu­
ating a claim of ineffective assistance of counsel is whether
counsel's conduct so underminded the proper functioning of the
adversarial process that the trial cannot be relied on as having
produced a just result. Strickland v. Washington

104 S.Ct. 2052

(1984). Ineffective assistance can be presumed when trial counsel
committed so many errors that he ceased to function as an advocate. U.S. v. Cronic, 466 U.S. 658, 104 S.Ct. 2039 (1984).
In Martinez v. Ryan. 132 S.Ct. 1309 (2012) the Supreme Court
of the United States determined that the effective assistance of
trial counsel is a "bedrock principle in our justice system."
Thus, a defaulted claim of ineffective assistance of trial counsel
(IATC hereafter), can be presented for the first time on a federal
petition for habeas corpus. The Martinez exception was made available to Texas prisoners one year later in Trevino v. Thaler
S.Ct. 1911 (2013)

133

a case first denied habeas relief in the

Fifth Circuit.
Coleman v. Thompson. Ill S.Ct. 2526 (1991) bars a petitioner
from advancing a claim on a Federal Habeas Petition not already
brought up on a State petition, but the Martinez/Trevino Exception
allows a Federal Habeas Court to review an otherwise procedurally
defaulted claim of IATC. Buck v. Davis

137 S.Ct. 759 (2017), a

case first denied habeas relief in the Fifth Circuit, was determined in this Supreme Court only two months prior to this petition4

er1s filing of the instant habeas petition in the Federal District
Court, Eastern District of Texas, Marshall Division. (See 2:17- cv322).
Buck filed a first Federal Habeas petition in October 2004
but was barred under Coleman in 2009 from advancing any new IATC
claims. In 2017, This Supreme Court stated in Buck

"Had Martinez

and Trevino been decided before Buck filed his 2254 petition, a
federal court could have reviewed Buck's IATC claim." (Buck, 137
S.Ct. at 771). This seems to suggest that retroactivity is implied,
"Today, however

a claim of IATC defaulted in a Texas post-convic­

tion proceeding may be reviewed in federal court if state habeas
counsel was constitutionally ineffective in failing to raise it,
and the claim has

some merit.

11*

Martinez, 566 U.S. at 14).

5

(Buck, 197 L.Ed.2d at 23, quoting

STATEMENT OF THE CASE
(Facts Material to Consideration of Questions Presented)
In this petitioner's case, the State Trial Court engaged in
practices designed to deny him of his procedural due process rights
on Direct and Collateral Review. Consequently, this petitioner has
not been afforded a fair hearing of the ineffective assistance of
trial counsel claims that

if presented in an original state writ

application, would have resulted in a reversal of his conviction.
First, the trial judge in State Court stacked the 397- year
state sentence on top of the "sister case"

a Federal 60-month

sentence. The judge's decision to run the State sentence consecutively to the Federal sentence had the effect of denying Petitioner
access to a State Prison Law Library, preventing petitioner from
learning the State laws that would lead to a meaningful State
Habeas petition. The State Trial Judge's action forced this peti­
tioner to write a state habeas application while in federal prison,
with no access to- state law books or state case law. Although
Federal Prison law libraries do not stock state law books

this

petitioner was forced to present a state habeas application while
in federal prison in order to preserve his federal habeas rights,
which were time-sensitive under the A.E.D.P.A.
Then, the State Trial Judge assigned to petitioner a Direct
Appeals lawyer, who not only filed a frivolous direct appeal brief
which consisted of nothing more than the notes this petitioner had
written for him, but also abandoned this petitioner without provi;
ding a copy of the brief,;: the State s response, or the Court’s
opinion. Petitioner diligently sought out a response from him on
6

eight separate occasions, all of which fell of deaf ears. The
failure of the court-appointed appellate attorney to notify this
petitioner resulted in being time-barred from filing his future
2254 Petition for Habeas Corpus under the A.E.D.P.A.
While still in Federal prison, petitioner filed his primary
state habeas application and was granted a hearing on the issue of
trial counsel’s failure to investigate an alibi witness. The state
trial court put the habeas hearing off for over a year, being
granted five 90-day continuances. When petitioner finally appeared
in court

four years after his trial

his trial attorney had died

and the attorney's family (it was a family law firm) lost all of
the case work on this case

severely prejudicing petitioner from

proving his claims. Four years after trial, the alibi witness
wasn't able to .^pinpoint the exact date and habeas relief was
subsequently denied.
When this petitioner was transferred to State prison after
the Federal term was completed and immediately following the State
Habeas Hearing, he was tasked with petitioning the Federal District
Court for habeas relief, which was prior to this Supreme Court's
decisions in Martinez v. Ryan

132 S.Ct. 1309 (2012) and Trevino

v. Thaler, 133 S.Ct. 1911 (2013). But he was already time-barred
under the A.E.D.P.A. due to being abandoned by his appellate
attorney. Consequently, the Federal District Court dismissed the
petition without reaching the merits of the petition. (See Cause
No. 9:07-cv-257, Eastern District of Texas).
Petitioner then brought a Petition to the Fifth Circuit,
providing-proof: of his diligence in: seeking an answer regarding his
7

t

direct appeal. His diligence is well documented. (See 07-41205,
Fifth Circuit, 2008), but petitioner's request for equitable
tolling was denied. The Fifth Circuit wrote, "A petition is not
tollable just because a petitioner has a bad lawyer." (See OPINION
JUDGEMENT, Fifth Circuit, 07-41205).
But this happened before a similar case from the Eleventh
Circuit was decided in this Supreme Court in Holland v. Florida,
130 S.Ct. 1549 (2010). Because Holland proved, just like this
petitioner had done in 2008, that his court-appointed appellate
attorney had abandoned him, and Holland was diligent in seeking
out a response, the time to present a Federal Habeas Petition
should have been equitably tolled under the A.E.D.P.A., because
being abandoned by the state-court appointed appellate attorney
cannot be attributed to the petitioner. This petitioner's original
2254 petition should have been equitably tolled but was not. Instead,
this petitioner's original Federal Habeas petition was dismissed
as time-barred without reaching the merits because this petitioner
was abandoned by his court-appointed appellate attorney.
Since being in State prison, petitioner has had access to
State law resources and has had the opportunity to learn the issues
that, if presented in his original state habeas application, would
have resulted in a reversal of his state conviction. But until
Coleman v. Thompson, 111 S.Ct. 1546 (1991) was revisited by this
Supreme Court in Martinez v. Ryan, Trevino v. Thaler, Buck v. Davis,
this petitioner still could not bring up any new'issues in Federal
Court, even had he not been time-barred to do so.

8

REASONS FOR GRANTING THE PETITION
Martinez v. Ryan, 132 S.Ct. 1309 (2012) announced that the
effective assistance of trial counsel is a "bedrock principle in
our justice system." The Martinez case allows for claims of
ineffective assistance of trial counsel (IATC hereafter) to be
brought up for the first time in a Federal Habeas petition. The
State of Texas Attorney General baulked at the new Martinez
exception to the Coleman v. Thompson default procedure

and so

did the Fifth Circuit. It took another case to go to this Supreme
Court, Trevino v. Thaler

133 S.Ct. 1911 (2013), to make the

Martinez Exception relevant to Texas cases. Petitioner filed a
2254 Habeas Petition in April, 2017, seeking a merit review on
new issues of IATC
Now

which this petitioner has yet to receive.

the Fifth Circuit and Federal District Courts below

are denying the Martinez/Trevino Exception under Teague v. Lane,
109 S.Ct. 1060 (1989), that retroactivity of Martinez/Trevino has
not been determined. The Federal District Court used this argument
on this petitioner’s case. (See "Magistrate's Report and Recom­
mendation" at page 6). But the Teague argument is meritless and
Buck v. Davis, 137 S.Ct. 759 (2017), shows that.
In Buck v. Davis

a decision handed down by this Supreme

Court only two months prior to this petitioner's file date in the
instant application, the Texas Attorney General also applied the
Teague argument to deny Buck's habeas claim. But Buck argued,
and this petitioner reurges, that "The Teague analysis applies
only to new rules of criminal procedure that govern trial pro­
ceedings, not new rules of habeas proceedings
9

that govern collateral

proceedings, and the State in any event waived its Teague argument."
Buck v. Davis, 137 S.Ct.at 780. Besides

the Constitutional guar­

antee which petitioner relies upon is ineffective assistance of
trial counsel

which is not at all a new concept. It is a Sixth

Amendment Constitutional guarantee.
"[The assistance of counsel] is one of the safeguards of the
Sixth Amendment deemed necessary to insure fundamental human
rights of life and liberty...The Sixth Amendment stands as a con­
stant admonition that if the constitutional safeguards it provides
be lost, justice will not 'still be done.
58 S.Ct. 1019 (1938); Avery v. Alabama

t ti

Johnson v. Zerbst

60 S.Ct. 321 (1940); Smith

v. O'Grady, 61 S.Ct. 572 (1941).(Quoted in Gideon v. Wainwright,
83 S.Ct. 792, 805 (1963)).
As Chief Justice Marshall opined in Marbury v. Madison,
1 Cranch 137, 177-178

2 L.Ed. 60, 73 (1803), "If then the courts

are to regard the constitution: and the constitution is superior
to any ordinary act of the legislature, the constitution, and not
such ordinary act, must govern the case to which they both apply."
.(Quoted in Mackey v. U.S., 401 U.S. 667,678, 91 S.Ct. 1160 (1971).
In the event that the Martinez Exception to Coleman requires
a retroactive determination under Teague v. Lane, then it is
important to note that "Teague recognize[s] two catagories that
are not subject to its general retroactivity bar...Courts must
give retroactive effect to new

watershed rules of criminal pro­

cedure', implicating the fundamental fairness and accuracy of the
criminal proceeding." Montgomery v. Louisiana. 136 S.Ct. 718, 728
(2016)(Quoting Schriro v. Summerlin, 124 S.Ct. 2519 (2014) and
Teague, 109 S.Ct. 1060 (1989). The Martinez v. Ryan Exception to
10

the Coleman principle falls squarely into this Teague exception
as a new watershed rule of criminal procedure

as Martinez announ-

ces effective assistance of trial counsel a "bedrock principle."
Procedural rules are designed to enhance the accuracy of a
conviction or sentence by regulating
the defendant's culpability,

I II

the manner of determining

Montgomery, 136 S.Ct. at 730 (Quo-

ting Schriro, 542 U.S. at 353; Teague, at 313. "Those rules

merely

raise the possibility that someone convicted with use of the inval­
idated procedure might have been acquitted otherwise,

i ii

Schriro,

at 352.
In Desist v. U.S., 89 S.Ct. 1030 (1969), Justice Harlan
reasoned that one of the two principle functions of habeas corpus
was

to assure that no man has been incarcerated under a procedure

which creates an impermissibly large risk that the innocent will
be convicted.

(Quoted in Teague, 109 S.Ct. at 107). "All

new*

constitutional rules which significantly improve the pre-existing
fact-finding procedures are to be retroactively applied on habeas."
"...for example

such, in my view, is the case with the right to

counsel at trial now held a necessary condition precedent to any
conviction for a serious crime." (Justice Harlan, Mackey v, U.S.,
91 S.Ct. 1160, 1180-81 (1971) as quoted in Teague v. Lane, 109
S.Ct. 1061 (1989).
Justice Harlan further explained in Desist, "the threat of
habeas serves as a necessary additional incentive for trial and
appellate courts throughout the land to conduct their proceedings
m a manner consistent with established constitutional standards."
(Quoted in Teague, 109 S.Ct. at 1073).
11

Although the Supreme Court declined to determine the Teague
issue in Buck, it did agree that the Teague Argument had been waived
under Danforth v. Minnesota

128 S.Ct. 1029 (2008)(State can waive

a Teague defense...by failing to raise it in a timely manner.) In
this petitioner’s 'case, the State did not raise a Teague defense
at all. It was raised Sua Sponte by the Magistrate Judge in
Federal District Court. (See "Report and Recommendation",Appendix
"C" at page 6). Thus, like Buck

any Teague argument could also be

waived in this petitioner's case as well.
Habeas relief was granted to Buck by this Supreme Court on
Februaryy22, 2017, and the Fifth Circuit overturned Buck's sentence
on April 13, 2017, five days before this petitioner filed the
instant habeas petition in Federal District Court on IATC claims.
Buck's procedural posture is nearly identical to that of Petitioner.
BUCK:

PETITIONER':'

Conviction affirmed on
Direct Appeal.........
April
State Habeas filed
(Failed to mention IATC
expert testimony).........

Conviction affirmed on Direct
1999 • Appeal
March 2004
Pro Se State Habeas filed
(Failed to mention many IATC
claims)
August 2005

1999
First Federal Habeas. Oct. 2004
(Coleman barred IATC claim)
Fifth Circuit denied COA
2011
Supreme Court determined that
Martinez applied Feb. 22, 2017
Habeas relief granted in
Fifth Circuit April 13, 2017

First pro se Federal habeas Oct. 2007
(Coleman barred IATC claims)
Fifth Circuit denied COA
2008

Aj>ril 18 l 2017: Filing of instant
TC claims Tn District Court

Petitioner would rely on Buck v. Davis to show that he should
be granted a merits review of the habeas petition that was presented

12

to the Federal District Court on April 18, 2017. Petitioner submitted a Motion to show Cause and Prejudice in Federal District
Court. (Docket #1) under Martinez v. Ryan,and Trevino v. Thaler.
Cause is based on the procedural defects that were caused by the
State, of which this petitioner had no control, and Prejudice
was based on the ineffectiveness of trial counsel, namely that
counsel's errors led to an unconstitutional conviction. Having
shown Cause and Prejudice, "jurists of reason would find it
debatable whether the petitioner states a valid claim of the
denial of a constitutional claim and jurists of reason would find
it debatable whether the district court was correct in its pro­
cedural ruling under Slack v. McDaniel, 120 S.Ct. 1595 (2000).
This petitioner

vehemently

believes that because of State

Trial Court decisions and omissions regarding collateral proce­
dural rules, he is being held on multiple life sentences due to
procedural default. However, this default cannot be attributed to
this petitioner, rather must be attributed to the State Trial
Court, who, knowing the conviction was based on a very weak case,
made certain decisions and omissions so that the conviction could
still stand, if only by procedural default. Legal and Judicial
gamemanship ought not be tolerated in a Court of Law! The State
ought not benifit from this windfall of procedural default under
the guise of comity and finality when it was the State Trial Court
that caused the procedural default in the first place.
This includes the dismissal of this petitioner's first
Federal Habeas due to having been abandoned by his trial courtappointed appellate attorney. In Rose v. Lundy

102 S.Ct. 1198,

(1982)(Dismissal of mixed petition), this court said, "We have
13

determined that a habeas petition filed after an initial petition
was dismissed without an adjudication on the merits is not a
'second or successive' petition." (Quoted in Slack v. McDaniel,
120 S.Ct. 1595 (2000).
Because the trial court's appointed attorney on direct appeal
caused the procedural default on this petitioner's initial 2254
habeas petition, exactly like in Holland v. Florida, 130 S.Ct.
2549 (2010), and because the original 2254 petition was dismissed
without reaching a merits review, and because the Coleman v. Thomp­
son principle applied at the time further hindered a review on any
new claims of IATC not already raised in a State Habeas proceeding,
and now the Martinez/Trevino cases allow for Federal review of
IATC claims not first presented in a State habeas petition, and
because Buck v. Davis

was decided on the merits even though his

first Federal habeas petition barred any new claims of IATC, a
merits review is warranted in this petitioner's case.
The Fifth Circuit has refused to take the cause of this
petitioner's State and Federal procedural default into consider­
ation when it denied a merits review on the substantial IATC
claims, which, if this petitioner had been given a fair oppor­
tunity to show in his first State Habeas Corpus petition, would
have resulted in a reversal of his conviction. "A factor is exter­
nal to the defense if it cannot fairly be attributed to the
petitioner." Davila v. Davis, 137 S.Ct. 2058 (2017).
By moving IATC claims out of the direct appeals venue, where
a defendant has a constitutional guarantee to counsel, and then
failing to provide counsel on collateral review, the State impeded
14

the defendant's right to raise a meaningful IATC claim on his
State Habeas petition. In this petitioner's case, after the State
District Attorney denied all claims on his State Habeas Application
"in whole and in part," the Texas Court of Criminal Appeals ordered
fact finding on two specific issues. Only then did the trial court
appoint an attorney to represent this petitioner, but only for
the purpose of the habeas hearing on those two designated issues,
and not to develop new grounds for review. The State habeas pro­
cedure made it impossible for the appointed habeas attorney to
add any new claims to petitioner's pro se application at that
point. Petitioner's attorney simply was not hired by the state
for such a task.

Had an attorney been appointed by the trial

court before the Court of Criminal Appeals designated issues for
fact finding, it is highly likely that the grounds that petitioner
now complains of would have been included in the original state
habeas application and relief granted accordingly.
The Martinez Court contends that this practice is unfair to
the pro se litigant, and in these circumstances the defaulted IATC
claims can be entertained by a Federal Court. As Judge Alcala of
the Texas Court of Criminal Appeals questioned, "How can the
right to the effective assistance of counsel at trial be ensured
if a state has no adequate vehicle for a defendant to assert that
the right was violated?" Ex parte Garcia. 486 S.W.3d 565 (2016).
Like Buck v. Davis, where Petitioner Buck was barred from
going back to the Texas Courts with another State Habeas writ,
this petitioner could not go back to the state courts under the
"one-bite-from-the-apple" mantra. Then, by running the 397-year
15

State sentence consecutive to the 60-month Federal sentence in
the Federal "sister-case" the State effectively denied this pro
se petitioner access to State law resources in order to prepare
an effective State Habeas petition, further impeding this peti­
tioner's ability to present these legal issues. But in order to
attempt to preserve his rights in Federal Court, this petitioner
was forced to write a State Habeas petition while in Federal
prison, without access to State legal’ resources.
Also like Buck, the Coleman v. Thompson principle did not ■
allow this petitioner to bring new IATC claims to the Federal
Court's attention on a 2254 Habeas petition. But Martinez and
Buck now give Slack proper application here. This petitioner's
present Habeas Corpus Petition should be treated as a first/
original petition under Slack v. McDaniel, 120 S.Ct. at 1599.
"Today, however, a claim of ineffective assistance of trial
counsel, defaulted in Texas post-conviction proceedings, may be
reviewed in federal court if state habeas counsel was consti­
tutionally ineffective in failing to raise it, and the claim has
'some merit.

i it

(Or the state habeas petition was presented pro se

as in this petitioner's case). Buck, 137 S.Ct. at 779-80 (2017).
The Cause and Prejudice Standard was designed to counter
the

Doctrine of Comity, a long-time standing in the Federal

Court System, giving Federal Courts, authority to review the merits
of a state-court conviction otherwise procedurally barred. Not
all cases fit neatly into the 2254 scheme. At 2254(b)(1), "An
application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgement of a State court shall not be
16

granted unless it appears that -(B)(iii) circumstances exist that
render such [State corrective process] ineffective to protect the
rights of the applicant." Considering the procedural complications
imposed upon this petitioner, Federal habeas should be implimented
to insure that this petitioner's conviction is constitutional.
Federal merits review of a procedurally defaulted claim is
permitted when the petitioner is able to "demonstrate cause for
the default and actual prejudice as a result of the alleged vio­
lation of federal law." Hughes v. Quarterman. 530.F.3d 336, 341
(5th Cir. 2008). Applying Martinez in the C.O.A. context, "we have
held that to succeed in establishing cause, the petitioner must
show: (1) that his claim of IATC at trial is substantial - i. e,
has some merit, and (2) habeas counsel was ineffective in failing
to present those claims in his first state habeas proceeding."
Garza v. Stephens, 738 F.3d 669, 672 (5th Cir. 2013). This peti­
tioner has met this standard.
This petitioner has also motioned in Federal District Court
and in the Fifth Circuit for the appointment of an attorney, who
may better present this complex procedural issue. Both requests
were denied. This petitioner reurges this request.
To establish IATC., a petitioner must show that counsel's
performance was deficient and that the petitioner was prejudiced
by the deficient performance. Strickland v. Washington. 104 S.Ct.
2052 (1984). "Strickland asks whether it is 'reasonably likely'
the result would have been different had counsel acted differently."
Harrington v. Richter, 131 S.Ct. 770 (2011). Because trial counsel
failed to advocate in any meaningful way, this petitioner's trial
cannot be relied upon to have produced a jusy result under U.S. v.
17

Cronic, 104 S.Ct. 2039 (1984)

and Strickland

104 S.Ct. 2052

(1984). In an adversarial system as is ours, "it is the defendant's
attorney, not the prosecutor

who is primarily charged with protec-

ting the defendant’s rights." Mayberry v. Pennsylvania
499 (1971). In this petitioner's case

91 S.Ct.

the ineffectiveness of

court-appointed trial counsel implicated the Fourth, Fifth, Sixth,
and Fourteenth Constitutional Amendments.
FACTS OF THE CASE
Initially, the FBI and the local police department worked
together on this case. This petitioner was arrested by an FBI
Agent on what was later to be determined to be a state arrest
warrant. The arrest stemmed from a CD depecting two teenage boys
exposing themselves on a computer camera. The CD was actually in
possession of a third teenager who used the CD in a blackmailing
scheme against^this petitioner. The CD was confiscated from the
Blackmailer by Federal Agents and local police and became the
evidence that led to the 60-month Federal sentence. This petitioner
was indicted in State and Federal courts on charges stemming from
the CD. Petitioner was a church minister in the community.
Meanwhile, fueled by an investigation by lawsuit lawyers,
the state case grew over the course of the next 18 months prior
to state trial to include many additional charges in State Court,
including three first-degree aggravated sexual assaults and one
second degree sexual assaults. The local police constantly questioned
other young people with little resulting difference, each month
over a one-year period, until the lawsuit lawyers became involved
18

in the case. The allegations of sexual assaults came only after
the lawsuit lawyers became involved.
After passing a polygraph exam, the Federal prosecutor drop­
ped four of the five Federal charges involving the production of
the CD and Petitioner pled guilty to possession of the images
which were on the CD and computer hard drive, and received a 60month Federal sentence. After beginning the Federal sentence, this
petitioner stood trial on eleven counts in State Court, including
possession and production of the CD, (the same charges which were
dropped by the Federal prosecutor), as well as the additional four
counts of second and first degree sexual assaults, and received a
397-year State prison sentence.
The State sentence was run consecutively to the Federal
sentence, and after the estate trial, Petitioner was returned to
Federal prison to serve out the 60-month sentence before beginning
the 397-year State sentence. The lawsuit lawyers went on to sue
various entities of the church, garnering 62-million dollars in
four separate insurance settlements and one jury trial judgement.
No one ever went to the police with a complaint. Outcries
were only made to the lawsuit lawyers who obstructed justice by
interfering with the ongoing police investigation. In order to
cover up this fact, the State prosecutor did not call the local
police detective to testify.
This petitioner filed the instant 2254 application after
studying law in the State prison law library. Because State law
resources were unavailable to him to bring these issues to light
in the first instance, and because the State-appointed appellate
attorney abandoned this petitioner resulting in being time-barred
19

on his original 2254 application, and because the Coleman v.
Thompson principle limited the Federal Courts from reviewing any
new grounds not already presented in State Habeas Court, and
because Martinez v. Ryan now allows IATC claims to be reviewed in
Federal Court which were not first brought up on the State level,
and because Buck v. Davis was adjudicated on the merits

this

petitioner asks this court to grant a merits review based upon . ...
the following issues:
ISSUE ONE
DEFENSE COUNSEL WAS INEFFECTIVE IN FAILING TO OBJECT TO THE
PROSECUTOR’S MOTION IN LIMINE, WHICH LIMITED A LEGITIMATE DEFENSE
DISTURBING PETITIONER'S SIXTH AMENDMENT RIGHTS
MA criminal defendant's constitutional right to a meaningful
opportunity to present a complete defense is grounded in the 14th
Amendment's Due Process Clause and the Sixth Amendment's Compul­
sory Process and Confrontation Clause." Crane v. Kentucky, 106
S.Ct. 2146 (1986). A trial court's "clearly erroneous ruling"
excluding evidence may rise to the level of a constitutional vio­
lation if the evidence excluded is relevant and reliable and "forms
such a vital portion of the case that exclusion effectively pre­
cludes the defendant from presenting a defense." Wiley v. State,
74 S.W.3d 399

405 (Tex.Crim.App. 2002).

A legitimate defense was available in this case called
"Frame-Up," whichis defined as a conspiracy motivated by greed or
money. This conspiracy was orchestrated by lawsuit lawyers who had
already filed a civil suit in this case, prior to trial. No one
ever went to the police with a complaint against Petitioner during
a 12-month-long police investigation. There were no outcry wit20

nesses. In fact, the local police detective who was in charge of
the case for the State did not even testify for the State at trial,
(the prosecutor did however call on the FBI Agent to testify for
the State, but his testimony was limited.) There was no medical
or expert-interview testimony and no physical evidence presented
with regard to the sexual assault charges. Only through the law­
suit lawyers working hand-in-hand with the prosecutor and police,
where state witnesses were repeatedly solicited for stories in
exchange for huge cash settlements, did the sexual assault, charges
materialize.
At trial, the prosecutor asked for and was granted a Motion
in Limine limiting the defense from using the Frame-Up defense,
(RR:4/8/17-24), to which defense counsel's only response was, "You
mean I have to approach the bench before I can talk about that?"
(RR:4/8/22). In cross examination of Complainant Justin Strong, a
15-year old whose complaint included three aggravated sexual as­
saults, defense counsel asked, "did you have a lawyer at that
time?" (RR:5/154/5), which was immediately objected to by the
prosecutor. A discussion at the bench ensued which was out of the
hearing of the jury and the court reporter. (RR:5/154/7). It is a
fair assumption to conclude that the judge upheld the Prosecutor's
Motion in Limine at that ^.bench discussion.
Later Justin was again asked on cross examination if he had
mentioned these sexual assaults to anyone else? He answered:
A: No. I didn't, I never told anyone before the police came
to me. (RR:5/156/7-8)
But this was not true according to the actual police report, which
clearly states

"The lawsuit lawyer contacted the prosecutor, who
21

contacted [this detective] and [this detective] then went to the
juvenile lock-up facility to take the report. (See Marshall, Texas
Police Report). Justin*s lie on a material fact could have nullified the Motion in Limine

allowing the defense to reveal to the

jury that a) Justin had committed purjury; b) the lawsuit lawyers
were working behind the scene manipulating witnesses; c) providing
the motive for lying on the witness stand.
Instead, the defense rested. (RR:5/156/12), leaving the :
impression with the jury that Justin told the police about the
sexual assaults in the course of a normal police investigation.
The jury would never know the involvement of the lawsuit lawyers
and their obstruction of justice. The prosecutor purposely chose
not to call the local detective to testify so that the lawsuit
lawyer's involvement in the case would stay hidden from the jury.
But the Sixth Amendment right to confrontation of a state's
witness guarantees that an accused has an absolute right to cross
examine to show bias, prejudice, ulterior motives, and reasons to
lie. Davis v. Alaska, 94 S.Ct. 1105 (1974). The right of cross
examination is "the principle means by which the believability of

h

a witness and the truth of his testimony are tested." ID. 415 10..S. ;316^ VSee also Pennsylvania v. Ritchie, 480 U.S. 39, 52, 107 S.Ct. 989
(1987).(Explaining Confrontation Clause right is "designed to
prevent improper restrictions on the types of questions that
defense counsel may ask during cross examination!) The right to
confrontation is basically a trial 'right'." Barker v. Page, 88 S.Ct.
1318, 1322 (1968). "The exposure of a witness' motivation in test­
ifying is a proper and important function of the constitutionally
22

protected right of cross examination." Davis at 316-17. This is
especially true when there is a pending lawsuit on the charged
offense. U.S. v. Powell

124 F.3d 655 (5th Cir. 1997).

Limiting this legitimate defense was the equivalant of not
having a defense at all. Without the jury being informed that the
sexual assault charges stemmed not from a 12-month-long police
investigation or an outcry to family or friends

but from an out-

cry only to lawsuit lawyers who had constantly solicited the state
witnesses, the jury was without the proper facts to make an infor­
med decision on guilt. The prosecutor had made that decision for
them. Had the jury known the circumstances surrounding these
allegations, which the prosecutor took great care to hide

the

jury would likely have arrived at a different conclusion as to
the determination of guilt.
But this petitioner need not show that the jury would have
arrived at a different conclusion absent the improperly prohibited
viable cross examination. "We think that.a criminal defendant
states a violation of the Confrontation Clause by showing that he
was prohibited from engaging in otherwise appropriate cross examination designed to show a prototypical form of bias on the part
of the witness and thereby

to expose to the jury the facts from

which jurors... could appropriately draw inferences relating to
the reliability of the witness.

t ii

Davis v. Alaska

94 S.Ct. at 1111.

"To establish a Confrontation Clause violation, a defendant
need not show that the jury would have rendered a different ver­
dict, but that a reasonable jury might have received a signifi­
cantly different impression of the witness's credibility had
23

defense counsel been permitted to pursue his proposed line of
cross examination.” U.S. v. Templeson, 624 F.3d 215 (5th Cir. 2010).
Therefore, defense counsel's lack of advocacy along with a
lack of an objection and obtaining the judge's decision on the
record regarding the denial of a viable defense constituted inef­
fective assistance of trial counsel, implicating this petitioner's
Sixth Amendment right to effective assistance of counsel.
ISSUE TWO
TRIAL COUNSEL FOR THE DEFENSE WAS INEFFECTIVE IN FAILING TO
SEEK SUPPRESSION OF EVIDENCE OF AN ILLEGAL, PRIVATE SEARCH,
A VIOLATION. OF PETITIONER'S FOURTH AMENDMENT RIGHTS
Article 38.23, Texas Code of Criminal Procedures, forbids
the admission of evidence seized by any person when that evidence
/

has been obtained in violation of state law. Moreover, in Florida
v. Jardins, 132 S.Ct. 1409 (2013), this Supreme Court stated, "the
scope of license - expressed or implied - is limited not only to
a particular area, but also a specific purpose." So when Jacob
the Blackmailer testified that he "started rummaging and going
through all his CD's and stuff," (RR:4/44/10), he absolutely committed an illegal private search and seizure. Although Jacob the
Blackmailer had this petitioner's permission to use his computer
for the expressed purpose of searching the internet for a used
truck;and truck accessories, there was no expressed or implied
permission to rummage through personal property or the "trash bin"
of the computer.
Under state law, his actions could have been excused had
his intentions been to turn over the property to law enforcement,
under Art. 38.23,(Tex. Code Crim.Proc.), but Jacob testified that
24

Is

"one of the very-first;things that happened... is we called him
and asked for 500 dollars." (RR:4/56/15), which indicates no
intent to turn the CD over to law enforcement authorities.
There is also evidence of evidence tampering. The FBI Agent
testified at the state trial

"shortly after I hear his [the peti­

tioner's] voice, it stopped." (RR:4/146/25). "Almost immediately
after I heard Mr. Thomas

voice [on the video clip] it turned off,

almost immediately." (RR:4/149/3-4). This was the last clip,they
made

indicating that the part where the teens were told to turn

off the computer due to their misbehavior was purposely edited
out.

Because the tape was edited, this petitioner could not use

it to prove that the teens lied when they said that Petitioner
did not tell them to stop.
The CD in question depicts two teenage boys, both complain- ants in the case and plaintiffs in the pending civil lawsuit,
exposing themselves on the computer camera and making leud videos
of themselves. The FBI Agent describes it as "Monkeying around,"
(RR:4/137/8) and "Locker-room talk," (RR:4/148/5). The Agent
further explains

"I would not describe what was going on in the

video clips as sexual acts." (RR:4/147/10).
The CD evidence (which was the basis for the 60-month Federal
sentence) was clearly a product of an illegal private search and
seizure and should have been suppressed as such. It was prejudicial
to the defense as it led to the conviction of four charges directly
and was used to bolster the State's witnesses on the more serious
charges that had absolutely no supporting evidence

and the evi-

dence was edited. Defense counsel was ineffective in failing to
advocate to suppress this illegally seized evidence. (See e.g.
25

Jenschke v. State

147 S.W.3d 398 (Tex.Crim.App. 2004)(Private

search and seizure was illegal and inadmissible at trial where
there was a lack of intent to turn the evidence over to law
enforcement.)
ISSUE THREE
COUNSEL FOR THE DEFENSE FAILED TO MOTION TO SEVER COUNT SEVEN
A THIRD-DEGREE CHARGE OF POSSESSION OF CHILD PORNOGRAPHY,
WHICH PETITIONER PLEAD GUILTY TO IN OPEN COURT, BUT HAD AN
ABSOLUTE RIGHT TO SEVER, TAINTING HIS PRESUMPTION OF INNOCENCE
ON THREE FIRST-DEGREE CHARGES
Before trial began, but after the jury was seated in the jury
box, this petitioner's attorney urged him to "plead guilty to something.

So, having already pled guilty in Federal Court to the

possession charge, which was being supported by the CD evidence,
this petitioner pled guilty to the:same charge in State Court,
in front of the jury. But this petitioner was not told that the
evidence used to support this charge in State Court was changed.
The State first indicted petitioner based upon the CD evidence, just as the Federal prosecutor had done. Not happy with
the FBI's computer forensic examination

which during the State

trial this petitioner would learn that they could not even deter­
mine which computer, if any of them, had been used to record the
videos that the teens had made.,

The FBI Computer Forensic Exam­

iner testified on cross examination regarding the CD material:
Q: Now, which one of these machines was this made on?
A: I do not know. -(RR:4/184/2-3)
A: I can't tell you if they were even made on those
computers. (RR:4/184/20-21)
A: I did not find any link between the CD and the three
computers. (RR:4/185/9-10)
Q: Did you find the [CD] files on the hard drive of any of
these units?
A: No, sir. I did not. (RR:4/186/4-6)
26

The State's Computer Forensic Expert further testified:
"No Sir

I wasn't able to review them. They had been deleted. (RR:

5/53/18). "...not only deleted, they had been overwritten by newer
data." (RR:5/53/25). "We looked for the videos, they were not
there." (RR:5/58/3). "Those videos are not there, they have been
overwritten."
The State's forensic examiner, however, did find numerous
examples of child pornography on the "slack-space" of the computer
hard driven These images were not "saved to a file", but only
viewed and, by default, saved on the internal harddrive by the
computer itself. Unknown to this petitioner, the State then changed the evi­
dence it would use to support the possession charge to the images
that were "harvested" from the computer hard drive rather than the
CD evidence which petitioner was originally indicted under.

Only

in closing argument did the prosecutor reveal that the internet
pornography from the slack space of the harddrive would be used to
prove this charge. "Count Seven, the Possession of Child Porno­
graphy, defendant pled guilty. The State has to prove its case and
you were provided with a few examples of pornography that was
found on the defendant's computer.(RR:6/66/19)). This petitioner
had pled guilty to the wrong evidence!
But at the time of trial in 2003

the Possession Charge,

Texas Penal Code 43.26, was not included in Texas Penal Code 3.03(b)
so that had counsel requested severence of Count Seven from the
other counts

the court would have granted it by law. Rather than

pleading guilty in front of the jury, a Motion to Sever the
27

Possession charge entirely was proper. Having Petitioner plead
guilty to this charge in front of the jury was in no way a plausable and reasonable defense strategy because this petitioner had
an absolute right to severance, as the material shown to the jury
was far too prejudicial and too great a threat to the determin­
ation of guilt on the first-degree sexual assault charges. Secondly,
the internet slack-space harddrive material has been held to be
insufficient to support the charge of "knowingly possessing child
pornography."
A severance of this charge

or an objection was necessary to

preserve this error because State Courts agree that joinder of the
possession charge is far too prejudicial to the greater sexual
assault charges in these circumstances. For example, in Thrift v.
State, 134 S.W.3d 475 (Tex.App.-Waco 2004)

the defendant's con-

viction of Indecency with a Child was reversed because of the
improper admission of photographs of sexually aroused teenage males
which were found in the defendant's home. The photographs were
highly prejudicial and irrelevant to any contested issue at trial.
Similarly, in Pawlak v. State, 420 S.W.3d 807 (Tex.Crim.App.
2013), thousands of pornographic images found on the computer
disks taken from the defendant's home should have been excluded
under Rule 403, Rules of Evid. There was no showing that the def­
endant created any of the images or participated in any of the
activities shown in the images. The computer images offered no
rebuttal value because five complainants testified to being sexually
assaulted by Pawlak, and because of its sheer volume

the porno-

graphy evidence was highly prejudicial, and the prejudice outweighed
its probative value. The Pawlak case was remanded for harm analysis.
28

Moreover, in U.S. v. Moreland, 665 F.3d 137 (5th Cir 2011)
the Fifth Circuit determined, "when a defendant lacks knowledge
about a computer's cache files, and lacks access to and control
over those files

it is not proper to charge him with Possession

and Control of the child pornography images located in those files.
...[E]ven when the defendant has exclusive possession of his com­
puter, evidence of storage of child pornography images in the hard
drive, without more, is insufficient to sustain a conviction or
sentence for knowing possession or receipt of child pornography."
(Moreland, at 152).
In U.S. v. Kuchinski, 469 F.3d 853 (9th Cir. 2006)(Quoted
in Moreland, 665 F.3d at 153), the prosecutor offered no evidence
to show that Kuchinski was a "sophisticated" computer user, had
even knew of [its] existence t it

ever tried to access the cache or

(U.S. v. Kuchinski, 469 F.3d at 862). Various courts around the
country have refused to find that a defendant constructively pos­
sessed child pornography located on the "slack space" of a computer
hard drive, but recoverable with sophisticated forensic software,
"without additional evidence of the defendant's knowledge or
control of the images." Moreland
case points out

665 F.3d at 154. As the Moreland

Tex. Penal Code 43.26 did not criminalize viewing

child pornography as late as 2011. (See Moreland at 160, Footnote 1).
Petitioner's State trial was in 2003.
This is exactly the type of evidence though that the State
chose to use to support the possession of child pornography charge.
As the computer forensic examiner testified in this petitioner's
trial, "We actually read every

single, physical sector on the
29

hard drive." (RR:5/42/13). "We can look at any deleted files,
internet history files, deleted pictures...We can do a lot of
things that people are not used to seeing happen." (RR:4/43/25).
"We actually have some very specialized software that we can actually read that drive the same as if it were the files on the regu­
lar hard drive." (RR:5/43/14). "When you delete a file from the
computer, its not actually deleted." (RR:4/70/8).
To be clear, this petitioner is not arguing here that the
evidence was insufficient to support the possession charge, although
this is absolutely true. This petitioner complains that his trial
attorney was ineffective for: a) advising this petitioner to "plead
guilty to something" when he stood charged of three first-degree
offenses which could be stacked for 297 year sentence; b) allowing
petitioner to plead guilty to inadmissible evidence that he didn't
even know existed on the slack space of the hard drive; c) failing
to seek severance of the prejudicial possession charge altogether
which would have preserved the issue for direct appeal, where
the conviction would likely have been overturned.
A harm analysis would show harm because of the lack of any
supporting evidence for guilt on the sexual assault charges.
Although legally sufficient based solely upon the complainant's
testimony, there was no outcry evidence, no testimony from the
detective who investigated the assault accusations, no physical or
medical evidence and no interview testimony whatsoever. This
petitioner would show prejudice and harm because the photographic
evidence located on the slack space of the hard drive, bolstered
state witness testimony and inflamed the minds of the jury when
the evidence provided no evidentiary support to the more serious
30

f

charges. "We have held that no reasonable jury could convict a
defendant where the government has done nothing 'more than pile
inference upon inference

to prove guilt." U.S. v. McDowell, 498

F.3d 308, 314 (5th Cir. 2007)(Quoting U.S. v. Maseratti, 1 F.3d
330, 337 (5th Cir. 1993).
The internet pornography evidence "harvested" from the slack
space of the hard drive proved to be highly prejudicial and defense
counsel was ineffective for failing to seek severence of Charge
Seven from the rest of the case, which included three first-degree
aggravated sexual assaults, when severence was legally mandated
by State law. Tex.Penal Code 3.03(b)(2003). Defense counsel was
also ineffective for allowing this petitioner to:plead guilty to
this material ifi Open court without communicating what evidence
the State was going to use to support this charge. Defense counsel
did not advocate for this petitioner in any way concerning this
issue.
k'kk'k'k'kk'k'k'k'k'k'kk'k'k

After the prosecutor successfully limited a legitimate defense,
introduced illegally seized, edited evidence, and presented
prejudicial slack-space computer images, all without objection by
defense attorney, tipping the scales in the State's favor, the
prosecutor then weighed down the scale with improper testimony
and improper comments, also without objection

in order to

guarantee a conviction:
ISSUE FOUR
DEFENSE COUNSEL FAILED TO OBJECT TO PROSECUTOR'S USE OF
DEFENDANT'S POST-ARREST, POST-MIRANDA SILENCE, DISTURBING HIS
FIFTH AMENDMENT RIGHT AGAINST SELF-INCRIMINATION AND HIS
RIGHT TO REMAIN SILENT
31

"The government's use of a defendant's silence during its
.case-in-chief may constitute a constitutional violation." U.S. v.
Rodriguez, 43 F.3d 117, 121 (5th Cir. 1995). In Doyle v. Ohio,
96 S.Ct. 2240 (1976), this Supreme Court reasoned

"it would be

fundamentally unfair and a deprivation of due process to allow
the arrested person's silence to be used to impeach an explanation
subsequently offered at trial." Doyle, 96 S.Ct. at 2244. Although
this petitioner did not take the witness stand to offer an expla­
nation, the questions asked to the FBI Agent by the prosecutor
were designed to impeach petitioner's credibility. Without objec­
tion, the prosecutor asked the FBI Agent multiple questions regar­
ding Petitioner’s not being forthcoming about information during
his post-arrest, post-Miranda interrogation. At RR:4/139/14 to
140/14, the prosecutor questioned the FBI Agent:
Q: Did it seem like he only gave up as much as you knew?
A: Yes.
*
Q: In other words, if you didn't have him in a bind or
knew something, he didn't give you any forthcoming new
information?
A: No.
Q: And did he ever admit to you any kind of behavior that
was illegal at the time?
A: No.
The error is not harmless because the questions were designed
to, draw meaning from Petitioner's constitutional right to remain
silent. U.S. v. Pennington, 20 F.3d 593 (5th Cir. 1994)(Even when
a defendant is willing to give statements after arrest, this does
not give a prosecutor the right to impeach him by commenting on
what he did not say.)
Comments on defendant's post-arrest

post-Miranda silence

violates the Fifth Amendmnet prohibition against self-incrimination
and violate a defendant's right to be free from self-incrimination
32

under State Constitution as well. (U.S. Amend. 5, Texas Const. ■
Art. I, Sec. 10; Nixon v. State

940 S.W.2d 687 (Tex.App.-El Paso

1996)).
ISSUE FIVE
TRIAL COUNSEL FAILED TO OBJECT TO THE STATE'S ADMISSION OF
THIRD-PARTY EXTRANEOUS TESTIMONY FROM THREE WITNESSES, WHERE THE
TESTIMONY WAS NOT ADMISSIBLE AS AN EXCEPTION TO CHARACTER EVIDENCE
UNDER RULE 404(B) AND PROBATIVE VALUE WAS OUTWIEGHED BY
PREJUDICIAL EFFECT UNDER RULE 403.
Rev, Stumme, even though she did not testify to a crime or
even a bad act

testified for the State regarding Petitioner's

envolvement at her Columbus, Ohio

church six years prior to the

indicted charges, without an objection or challenge by the def­
ense attorney:
Rev. Stumme: I posted in the seminary notice that I would like
volunteers on Friday night for the neighborhood children, ::
to go to the YMCA...for anyone who would like to come and
spend some time with these children... and be with them there
and [defendant] was one of the volunteers for the program.
(RR:5/160/17-25)
Basically to be there and play with them and be involved
with the children. (RR:5/161/10). [Defendant] always got in
the swimming pool with the young people and was always
involved in particular with the young boys in the pool.
(RR:5/161/20). I was unconfortable and then he went on
internship and I was very happy that he wasn't involved
with my children. (RR:5/162/8) .
He came back for his senior year...I had an after-school
program and if he liked he could tutor in the after-school
program and I was still uncomfortable. (RR:5/162/15-20).
Prosecutor Black: During that time, Reverand Stumme, did you
notice that he paid particular attention to two individual
boys?
A:During ttiat time he tutored, absolutely. He had two boys
that he tended to be with, yes.
Q: And were their names Marcus Sowell and Kevin Maddox?
A: Yes.
Q: And did you notice anything about the behavior he had with
these two boys as compared to other children?
A: He was a good tutor and he helped them with their school
work; but then I heard the boys discussing they were going
33

to his apartment on weekends with him, and then I got con­
cerned. (RR:5/162/23-163/10).
On cross-examination, Rev. Stumme was asked:
Q': Did anyone make a complaint to you about Mr. Thomas?
A: No. (RR:5/169/2)
This testimony was not relevant to any fact of consequence.
The fact of relevance arises because Fact X is offered as circum­
stantial proof of Fact Y. But there was no "direct or logical
connection between the offered evidence and the fact to be proved."
Goff v. State, 931 S.W.2d 537, 553 (Tex.Crim.App. 1996)(No relation­
ship between evidence and the charged crime.)
Even so, the extraneous testimony played a very important
role in the State’s' case, which may be summed up through remarks
in the State’s closing regarding this testimony:
1) When you look at the facts in this case, don’t look as it as
one little deal because you know something, this is not the
first rodeo for this defendant. We brought to you what
happened in Ohio. We took it a step further and we said,.look,
here it is in Wiison. (RR:6/78/3-7).
2) Or Pastor Stumme, she told you the exact kind of behavior
that matched...
(RR:6/79/6-ll)
3) It’s not this is the first time that this man had a chance
to live his life right and do good by what he was supposed
to do. Pastor Stumme saw what was happening. He was teaching
himself with his grooming process in Ohio. (RR:7/20/1-17).
Even though there was no evidence that "what happened in Ohio"
was anything but good, defense counsel failed to challenge this
testimony under Rules 401, 402. "Relevant evidence" means evidence
having any tendency to make the existence of any fact that is of
consequence to the determination of the action more probable or
less probable than it would be without the evidence. Montgomery v.
State, 810 S.W.2d 372, 287 (Tex.Crim.App. 1990).
34

It simply cannot be adduced from Rev. Stumme's testimony that
Petitioner tossed children around playfully in the pool, or that
Petitioner tutored children at the after-school program, and two
children outside of the program, without having produced a single
complaint from either of those children or their families, had any
tendency to make the existence of a fact,of consequence, sexual
assault of teenage boys six years later, more probable, or that
Rev. Stumme's testimony proved that Petitioner had the requisite
intent to sexually assault the complainants of the indicted charges.
The testimony suggested a decision on an improper basis. She
created a false impression that Petitioner had a sinister motive
for being involved with the children. This suspicion lowered the
State's burden of proof, allowing the jury to find guilt on the
indicted charges based solely on suspicion. This testimony was
"irrationally connected" to the alleged crime.
Even if the evidence proved some sort of scheme, plan, or
pattern, the courts have disallowed it as an exception under Rule
404(B). In Daggett v. State, 187 S.W.3d 444 (Tex.Crim.App. 2005),
the court stated, "Unfortunately, courts frequently admit evidence
of extraneous acts under ["plan" or "scheme"] exception not to
show acts the defendant took in preparation for the ultimate of­
fense, but to show repeated acts that are similar to the charged
offense."

Repetition of the same act, however, or even the same

crime, does not equal "plan." U.S. v. Krezdorn, 639 F.2d 1327 (5th
Cir. 1981). It equals the repeated commission of the same criminal
offense obliquely to show bad character and conformity with that
bad character." Daggett, 187 S.W.3d at 452. This bad-characterconformity , whether express or not, is precisely what is barred
35

by Rule 404(B). Michelson v. U.S., 69 S.Ct. 213 (1948).
Defense counsel's ineffectiveness in not seeking to keep this
testimony from the jury affected Petitioner's substantial rights
because it had a substantial and injurious effect on the jury's
verdict by suggesting that Petitioner was a serial child-abuser.
Without objection or challenge

the prosecutor used two

additional witnesses to provide extraneous testimony. First was
Jacob the Blackmailer. Although his testimony was legitimate to
providing testimony on the blackmail scheme, the prosecutor went
into extraneous testimony. Also, Matthew Guzman provided pure thirdparty extraneous testimony, most of which was never revealed pre­
viously. When cross-examined', "Who was the first person you told?"
He answered

"My lawyer." (RR:5/182/1-8). This referred to the

lawsuit lawyers on the civil lawsuit already pending.
But Jacob and Matthew were plaintiffs in the lawsuit. Accor­
dingly, their testimony could have easily been excluded. "To be
relevant as an extraneous offense of Frame-Up

then the admission

of extraneous offense testimony must not be a part of that frameup." Wheeler v. State, 67 S.W.3d 879, 887-88 n.22 (Tex.Crim.App.
2002).Because they were part of the frame-up as plaintiffs in a
pending civil suit, their extraneous testimony cannot be used.
Petitioner relies on the State case Walker v. State, 195 S.W.
3d 250 (Tex.App.-San Antonio 2006), which mirrors this case:
"Defense counsel should have conduced a reasonable investigation and filed a discovery request to learn about extraneous
matters that might affect Walker's credibility; he should have
taken reasonable steps - such as filing a motion in limine - to
prevent such matters from coming before the jury; and when these
36

matters were raised before the jury, he should have objected and
requested a limiting instruction to mitigate the harm to Walker.
His strategy to handle it only if it came up at trial fell below
an objective-standard of adequate representation." Failure to dis­
cover and prevent the admission of inadmissible extraneous conduct
evidence fell below an objective standard of adequate represen­
tation. Ex parte Manchaca, 854 S.W.2d 128, 131-32 (Tex.Crim.App.
1993).
ISSUE SIX
DEFENSE COUNSEL FAILED TO OBJECT TO THE PROSECUTOR'S REMARK IN
CLOSING IMPLYING THAT THERE WERE OTHER EXTRANEOUS OFFENSES
WHICH WERE NOT IN EVIDENCE
The closing

the prosecutor told the jury, "I submit to you

things happened to these boys that we don't even know about."
(RR:7/83/17). It was manifestly improper because it injected new,
"facts" harmful to the accused. Cooks v. State, 844 S.W.2d 697,
727 (Tex.Crim.App. 1992). Without a proper objection, a jury instru­
ction to disregard was not given and there is no fair assurance
that the improper argument did not influence the jury's verdict
or had only a slight effect. The jury could infer from this com/

ment that the government knew more than it was able to tell them.
The prosecutor may not "roam beyond evidence presented during
trial." U.S. v. Gallardo-Trapero

185 F.3d 307 (5th Cir. 1999).

A proper objection would have preserved the issue for appeal
where the conviction would have been overturned. In Melton v. State,
713 S.W.2d 107, 114 (Tex.Crim.App.);Reed v. State, 991 S.W.2d
354 (Tex.App.-Corpus Christi 1999); Geuder v. State. 76 S.W.3d
133 (Tex.App.-Houston [14th Dist.] 2002)
37

a proper objection by

»■

defense counsel preserved this error and the courts reversed the
conviction because this error was so prejudicial that even an
instruction to the jury to disregard did not remove the prejudi­
cial effect.
ISSUE SEVEN
DEFENSE COUNSEL FAILED TO OBJECT TO THE PROSECUTOR'S REMARKS
TESTIFYING TO THE TRUTH OF THE COMPLAINANTS
The prosecutor may not bolster the credibility of its witnes­
ses by personally attesting to their truthfulness. U.S. v. Taylor,
210 F.3d 311 (5th Cir. 2000). The prosecutor may not express a
personal opinion on the merits of the case or on the credibility
of the witnesses. U.S. v. Berma

30 F.3d 1539 (5th Cir. 1999).

In closing, the prosecutor stated; "_I can tell you this,
Justin Strong sat right there and told you the truth, as hard as
it was, he told you the truth/ He wasn't faking that. He wasn't
making it up. He wasn't pulling facts out of the air..." (RR:7/
77/20-78/2).
We the prosecutor began with "I can tell you this," he made
the statement a personal opinion, as though he knew as a fact in
his role as prosecutor that the witness was telling the truth. "Such
comments repeatedly have been condemned [by the courts] as highly
improper because they raise the likelihood that a jury would beli­
eve that the only way to aquit the defendant is by 'abandoning
[their] confidence in the integrity of the government.

• it

U.S. v.

Young, 105 S.Ct. 1138 (1985); Berger v. U.S., 88 S.Ct. 629 (1935).
Defense counsel failed to object to those highly prejudicial
remarks, Without an objection, no curative measures were taken by
the court to limit the damage is caused and error was not preserved
38

for appeal where the conviction would likely have been overturned.
ISSUE EIGHT
DEFENSE COUNSEL FAILED TO OBJECT TO PROSECUTOR'S CLOSING REMARK
THAT COMPLAINANTS "DIDN’T HAVE A MOTIVE TO LIE" AFTER LIMITING
DEFENDANT'S RIGHT TO PRESENT A MOTIVE
The prosecutor was granted a Motion in Limine limiting the
defendant from using the frame-up defense. (See Issue One), bAit in
closing, he told the jury, "These kids didn't have a motive to
make this up." (RR:7/77/3-7). Defense counsel did not object to
this blatently unfair and misleading statement. The prosecutor
knew that there was a motive behind these stories, which was the
reason for his Motion in Limine in the first place. Instead of
allowing the jury to decide, the prosecutor decided for them by'
not allowing the motive to be presented by the defense.
The remark was a "willful and calculated effort on the part
of the State to deprive the accused of a fair and impartial trial."
Cantu v. State, 939 S.W.2d 627, 633 (Tex.Crim.App. 1997). Defense
counsel's failure to object allowed the jury to infer that the
witnesses had no motive to lie when in fact the prosecutor him­
self knew this was not true.
Gaddis v. State, 753 S.W.2d 393, 398 (Tex.Crim.App.) would
remind us that, "in making closing argument to a jury, counsel is
given wide latitude in drawing inferences from evidence, so long
as the inferences are reasonable, fair, and offered in good faith."
In this petitioner's case, the prosecutor made important decisions
regarding witness' credibility for the jury rather than allowing
the jury to be the fact-finders. Therefore, defense counsel's
failure to object was prejudicial, resulting in an unfair trial.
39

This petitioner has demonstrated that his conviction rests
on a trial that was unconstitutional, and had Petitioner been
offered the opportunity, would have prevailed on a State Habeas
Writ. This petitioner had also demonstrated that the trial court
is responsible for the default

when Petitioner was impeded from

advancing these issues in the State Habeas proceeding. Petitioner
was also impeded from advancing these issues in Federal Court when
his State Appellate Attorney abandoned him. This petitioner has
further shown that he meets the criteria in Martinez v. Ryan, and
urges this Supreme Court to grant a merits review.

CONCLUSION
The petition for a writ of certiorari should be granted.

espectfully submitted,

40

